Department of Homeland Security
   Ofﬁce of Inspector General

      Immigration and Customs Enforcement 

       Management Controls Over Detainee 

               Telephone Services 





OIG-10-36                             January 2010
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      January 13, 2010

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the U.S. Immigration and Customs
Enforcement's management controls over detainee telephone services. It is based on
interviews with employees and officials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................3


     Considerable Progress Has Been Made to Assure Detainee Telephone Services, Yet
        More is Needed ........................................................................................................3 

     Recommendations..........................................................................................................6 

     Management Comments and OIG Analysis ..................................................................6 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.........................................................8 

     Appendix B:           Management Comments to the Draft Report .......................................10 

     Appendix C:           Major Contributors to this Report........................................................12 

     Appendix D:           Report Distribution ..............................................................................13 


Abbreviations
     DHS                   Department of Homeland Security 

     OIG                   Office of Inspector General 

     ICE                   U.S. Immigration and Customs Enforcement 

     IGSA                  Intergovernmental Service Agreements 

     COTR                  Contracting Officer’s Technical Representative 





                             Immigration and Customs Enforcement Management Controls 

                                          Over Detainee Telephone Services 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                This report presents the results of our audit to determine whether
                U.S. Immigration and Customs Enforcement information and
                communications management controls provide reasonable
                assurance that detainee telephone service is consistent with
                applicable standards and contract provisions.

                U.S. Immigration and Customs Enforcement has made
                considerable progress in assuring detainees’ access to contractor
                telephone and pro-bono services at Service Processing Centers,
                Contractor Operated Facilities, and Intergovernmental Service
                Agreement sites where the majority of illegal aliens are detained.
                U.S. Immigration and Customs Enforcement has implemented
                layered procedures to monitor and test the status of telephone
                hardware and software and ensure pro-bono telephone numbers are
                updated and accurate. However, additional controls are needed to
                ensure contractor compliance with the financial provisions
                contained in the existing and future telephone services contracts
                and that individuals assigned to oversee these contracts are
                knowledgeable in financial matters.

                We are recommending that U.S. Immigration and Customs
                Enforcement develop and implement policies and procedures to
                ensure contractor compliance with all financial provisions
                contained in existing and future telephone services contracts. We
                are also recommending that U.S. Immigration and Customs
                Enforcement ensure that the individuals assigned to oversee these
                contracts are conversant in financial matters. U.S. Immigration
                and Customs Enforcement concurred with both recommendations.




              Immigration and Customs Enforcement Management Controls

                           Over Detainee Telephone Services


                                      Page 1
______________________________________________________________________________________



Background
                         The Department of Homeland Security, U.S. Immigration and
                         Customs Enforcement as the successor agency of Immigration and
                         Naturalization Service currently operates 15 Service Processing
                         Centers and Contractor Operated Facilities that are responsible for
                         the care and custody of approximately 10,000 aliens. Most of
                         these facilities operate a direct dial telephone system for the use of
                         the detainee population. ICE also uses 215 Intergovernmental
                         Service Agreements (IGSA) detention facilities located in state and
                         local jurisdictions to accommodate an additional 20,000 detainees
                         nationwide. ICE procures bed space at these sites at a pre-
                         negotiated per diem rate. In addition, ICE operates hold rooms in
                         their field and sub-offices which presently do not offer telephone
                         services.

                         In 2000, the Immigration and Naturalization Service issued
                         National Detention Standards that require ICE facilities and IGSA
                         sites that hold detainees for more than 72 hours to provide
                         detainees “reasonable and equitable access” to telephone services.
                         These standards also authorize detainees free telephone calls to
                         legal services providers, consular officials, and federal and state
                         courts where the detainee is or may be involved in a legal
                         proceeding. The requirement that detainees be permitted access to
                         telephone services is still in force.

                         In January 2004, DHS awarded a no-cost contract to replace the
                         existing Detainee Telephone System. The contractor was
                         responsible for installing, maintaining, and repairing the telephone
                         system at ICE facilities, in addition to connecting outgoing “pro-
                         bono” calls under the detainee telephone system. The contractor
                         was also responsible for providing access to pro-bono calls at
                         IGSA sites where other vendors provide telephone services. The
                         contract was structured as a no-cost to the government contract.
                         The contractor was to recover operating expenses from profits
                         derived from collect calls and debit card sales at 15 ICE facilities
                         and 1 dedicated IGSA site.

                         In fiscal year 2007, we, as well as the Government Accountability
                         Office, reported instances of inoperable telephones and were
                         unable to connect to pro-bono telephone numbers at detention
                         facilities visited.1 In May 2008, we reported that the contract did

1
 Alien Detention Standards, GAO-07-875, July 2007; Treatment of Immigration Detainees Housed at
Immigration and Customs Enforcement Facilities, OIG-07-01, December 2006.

                     Immigration and Customs Enforcement Management Controls

                                  Over Detainee Telephone Services


                                               Page 2
______________________________________________________________________________________


                        not require the contractor to furnish financial information nor
                        validate call rates charged to detainees and remaining balances on
                        unused calling cards.2 We also reported that the contract did not
                        contain incentives to compel improved contractor performance.

                        In 2008, ICE revised the detention standards to provide detainees
                        reasonable and equitable access to "reasonably priced" telephone
                        services in addition to previously mandated free call services. The
                        revised standards were initially implemented at the eight Service
                        Processing Centers and are scheduled for full implementation in
                        early 2010 for the remaining detention facilities.

                        Currently, all ICE facilities allow detainees controlled access to
                        contractor-operated telephones to make both outgoing and
                        pro-bono calls under the Detainee Telephone System. These
                        detention facilities permit the use of calling cards, collect calls, and
                        free preprogrammed calls. Additionally, all ICE facilities provide
                        international calling capability. At IGSA sites, the contractor
                        provides access to pro-bono calls only by using the facilities’
                        present telephone systems, where the local carriers do no provide
                        pro-bono calls.


Results of Audit
        Considerable Progress Has Been Made to Assure Detainee
        Telephone Services, Yet More is Needed
                ICE has made considerable progress in assuring detainees have access to
                telephone services at ICE facilities and IGSA sites where the majority of
                illegal aliens are detained. ICE implemented layered procedures to
                monitor and test the status of telephone hardware and software and ensure
                pro-bono telephone numbers are updated and accurate. In addition, the
                telephone services contractor voluntarily amended the contract to reduce
                fees charged for certain debit card calls and implemented a debit card
                refund process. However, ICE management controls ensuring contractor
                compliance with a variety of financial provisions contained in the existing
                telephone services contract could be improved.

                ICE officers and contracted compliance reviewers monitor and test
                compliance with National Detention Standards on a daily or weekly basis,
                and reside in the 37 largest detention facilities. ICE officers in field

2
 Review of Immigration and Customs Enforcement Detainee Telephone Services Contract, OIG-08-54,
May 2008.

                     Immigration and Customs Enforcement Management Controls 

                                  Over Detainee Telephone Services 


                                              Page 3
______________________________________________________________________________________


                 offices consolidate the test results and submit a summary status report to
                 the agent located in ICE headquarters Detention Standards Compliance
                 Unit that is assigned to perform Contracting Officer’s Technical
                 Representative (COTR) duties.3 The COTR also monitors the progress of
                 repair tickets resulting from service outages and inaccurate pro-bono
                 telephone numbers until resolved.

                 Although significant progress has been made to improve the development
                 and execution of the telephone service contract, there continues to be a
                 risk that detainees could be mischarged for these services. For example,
                 the existing telephone services contract requires the contractor to produce
                 the following financial information:

                          �	 Call pricing information before and as a call is being
                             processed;
                          �	 Cost and call accounting and management reports; and
                          �	 Call history, cost, and call accounting information on
                             commonly used electronic media.

                 While the existing telephone services contract requires the contractor to
                 produce financial-related data, the COTR assigned to oversee the contract
                 did not review this information. According to the COTR, it is in the
                 service provider's best financial interest, in order to profit from the
                 contract, to ensure that phones are working and that detainees are making
                 as many collect and debit card calls as possible. For these reasons, the
                 COTR said that the contract is "self-policing" and therefore the current
                 level of oversight being provided is sufficient.

                 However, the fact that it is in the contractor’s best interest to enable
                 detainees to make as many debit card and collect calls as possible should
                 be reason enough for ICE to closely monitor and evaluate the charges
                 associated with these calls to ensure they were accurate and reasonable.
                 As stated earlier, the telephone services contract contains schedules of the
                 charges permitted for local and international debit and collect calls.
                 Further, cost and call accounting and pricing data is being regularly
                 provided to the government via a series of management reports. Despite
                 evidence that detainees had, in the past, been inappropriately charged an
                 additional fee to obtain access to a local telephone service,4 the COTRs
                 assigned to monitor the telephone services contract were neither
                 monitoring nor evaluating contractor adherence to the contract’s financial

3
  Contracting Officer’s Technical Representative is responsible for monitoring the contractor’s progress
toward fulfilling technical requirements of the contract.
4
  A former COTR disclosed that detainees in the Buffalo Federal Detention Center had once been charged
an additional surcharge to connect to the local telephone service provider that was prohibited under the
contract.

                       Immigration and Customs Enforcement Management Controls 

                                    Over Detainee Telephone Services 


                                                 Page 4
______________________________________________________________________________________


              reporting requirements for accuracy and fairness. By their own admission,
              none of the COTRs interviewed were sufficiently knowledgeable to
              conduct the much-needed analyses. Assigning COTR's to the telephone
              services contract who have experience analyzing financial reports, or
              providing them access to staff with that skill would help authorities
              identify, document, and respond to any billing irregularities and provide
              assurances that the service provided remains accessible and charges
              accurate and reasonable.

              Recent Improvement

              In August 2007, ICE awarded a contract to provide support services to the
              onsite detention standard compliance capability of the Office of Detention
              and Removal. This contract was in effect through mid April 2009. In
              April 2009, DHS subsequently awarded a contract to the same contractor;
              however, the scope of the new contract was expanded to provide a greater
              level of service. For example, the new contract requires the use of subject
              matter experts in health care, safety, and security. The contract provides
              permanent compliance reviewers at 37 of the largest detention facilities
              where over 70% of detainees are held and teams of rovers to inspect the
              remaining IGSA sites based on a schedule agreed to by ICE. We reviewed
              compliance review guidelines used by these inspectors to determine how
              tests of telephone detention standards were to be performed. The
              guidelines include requirements that reviewers verify telephones are
              inspected daily, usage rules and operating instructions are posted, pro-
              bono telephone numbers are accurate, and there is at least 1 telephone for
              each 25 detainees. Compliance inspection results are reported monthly to
              quarterly depending on the degree of use of a given facility to house ICE
              detainees.

              Grievance Process

              We reviewed monthly reports of compliance reviews conducted at 4 ICE
              facilities and quarterly inspections conducted at 1 smaller IGSA during
              June and July 2009 to determine whether inspections identified detainee
              complaints or grievances related to detainee telephone services. The
              compliance reviews reported no telephone-related complaints or
              grievances.

              Replacement Contract

              ICE has taken a number steps to improve detainee access to telephone and
              pro-bono services and to provide assurances that detainee grievances are
              identified and addressed in a timely manner. ICE incorporated these
              measures in the replacement telephone services contract implemented in

                  Immigration and Customs Enforcement Management Controls 

                               Over Detainee Telephone Services 


                                          Page 5
______________________________________________________________________________________


              August 2009 after a protest of the May 2009 award was dismissed. The
              replacement contract includes performance incentives and requires the
              contractor to provide ICE management with monthly reports on financial
              issues, such as revenue, call volume, and refunds paid to detainees. If
              fully implemented, these measures should further improve the detainees’
              access to telephone and pro-bono services.


              Recommendations
                     We recommend that the Assistant Secretary, U.S. Immigration and
                     Customs Enforcement:

                     Recommendation #1: Develop and implement policies and
                     procedures to review the financial aspects of the telephone services
                     contract to ensure detainees are not being mischarged for telephone
                     services.

                     Recommendation #2: Ensure that individuals assigned to oversee
                     the telephone services contract are fully capable of understanding
                     and evaluating the financial data requirements associated with
                     existing and future contracts.


       Management Comments and OIG Analysis
                     ICE Comments to Recommendation #1:

                     ICE concurred with this recommendation and plans to develop
                     policies and procedures for monthly reporting by the contractor,
                     monthly verification and spot checks by the COTR, and annual
                     review comparing contract pricing to industry standards and
                     market rates. ICE plans to have these policies and procedures in
                     place within 30 days of the transition to its new telephone contract.
                     The scheduled transition date is February 28, 2010.

                     OIG Analysis

                     ICE’s efforts to develop and implement standardized policies and
                     procedures will improve its ability to conduct effective contract
                     oversight. This recommendation is resolved, but will remain open
                     until ICE completes and issues the policies and procedures to
                     review financial aspects of the telephone services contract.



                  Immigration and Customs Enforcement Management Controls 

                               Over Detainee Telephone Services 


                                          Page 6
______________________________________________________________________________________


                     ICE Comments to Recommendation #2:

                     ICE concurred with our recommendation and said it had contracted
                     an industry expert capable of understanding and evaluating
                     financial reports submitted by the contractor. The industry expert
                     will assist with Contracting Officer and COTR oversight of the
                     telephone services contractor’s performance. ICE said the current
                     COTR is provided periodic financial management training.
                     Further, ICE said it will coordinate with department and agency
                     officials to ensure the COTR has additional technical support, if
                     needed.

                     OIG Analysis

                     ICE’s use of contractors as technical agents and its commitment to
                     provide its COTRs with financial management training will help
                     ensure compliance with contractual financial data requirements.
                     However, ICE’s use of contractors as technical agents does not
                     relieve its COTRs of their oversight duties and responsibilities.
                     This recommendation is resolved and closed.




                  Immigration and Customs Enforcement Management Controls 

                               Over Detainee Telephone Services 


                                          Page 7
Appendix A
Purpose, Scope, and Methodology

                   The objective of our audit was to determine whether ICE
                   information and communications management controls provide
                   reasonable assurance that detainee telephone service is consistent
                   with applicable standards and contract provisions.

                   We interviewed government officials and compliance inspection
                   contractors at ICE headquarters in Washington, DC. A support
                   contractor assigned to coordinate telephone repairs was
                   interviewed via teleconference. Immigration Enforcement Agents
                   and contract compliance inspectors were interviewed at the Krome
                   Service Processing Center in Miami, Florida and the McHenry
                   County Correctional Center in Woodstock, Illinois.

                   We reviewed contract terms and conditions of the telephone
                   services contract (COW-4-C-0122), compliance inspection
                   contracts (HSCECR-09-C-00001, HSCECR-09-C-00004); and the
                   solicitation for the replacement telephone services contract
                   (HSCEDM-09-R-00009). We also reviewed the results of
                   compliance inspections conducted by the contractors and telephone
                   status reports prepared by ICE field agents for the period January
                   through July 2009.

                   We tracked how information travels between detention facilities,
                   field offices, and ICE headquarters. We reviewed and compared
                   (1) weekly telephone serviceability reports prepared by ICE field
                   agents assigned to monitor conditions at detention facilities; (2)
                   summary phone tracker reports prepared at Detention and Removal
                   field offices; and, (3) Telephone Reports distributed at ICE
                   headquarters. We analyzed these reports and the results of
                   monthly, quarterly, and annual compliance inspections prepared by
                   contract compliance reviewers. These included records of detainee
                   complaints recorded by the DHS-OIG hotline to identify the types
                   and frequency of complaints, telephone outages, and inaccurate
                   pro-bono telephone numbers.

                   We developed an understanding of internal controls over detainee
                   telephone services by reviewing prior Government Accountability
                   Office and DHS-OIG reports, reviewing National Detention
                   Standards, and interviewing ICE officials assigned to oversee the
                   telephone and the compliance inspection contracts. The
                   understanding we gained was used to plan the audit and determine
                   the nature, timing, and extent of tests to be performed.

                   We conducted this performance audit between April 2008 and
                   August 2009 under the authority of the Inspector General Act of

                Immigration and Customs Enforcement Management Controls 

                             Over Detainee Telephone Services 


                                        Page 8
Appendix A
Purpose, Scope, and Methodology

                   1978, as amended, and according to generally accepted
                   government auditing standards. Those standards require that we
                   plan and perform the audit to obtain sufficient, appropriate
                   evidence to provide a reasonable basis for our findings and
                   conclusions based on our audit objectives. We believe that the
                   evidence obtained provides a reasonable basis for our findings and
                   conclusions based on our audit objectives.

                   We thank ICE and its contractors for their cooperation in the
                   performance of this audit.




                Immigration and Customs Enforcement Management Controls 

                             Over Detainee Telephone Services 


                                        Page 9
Appendix B
Management Comments to the Draft Report




                Immigration and Customs Enforcement Management Controls 

                             Over Detainee Telephone Services 


                                        Page 10
Appendix B
Management Comments to the Draft Report




                Immigration and Customs Enforcement Management Controls 

                             Over Detainee Telephone Services 


                                        Page 11
Appendix C
Major Contributors to this Report


                    Richard T. Johnson, Director, Immigration and Enforcement
                    Division
                    Robert Greene, Desk Officer, Immigration and Enforcement
                    Division
                    Mark Ferguson, Team Lead
                    Marisa Coccaro, Analyst
                    Andrew Herman, Auditor
                    Armando Lastra, Auditor
                    Sandra Ward-Greer, Auditor
                    Gary Alvino, Independent Referencer




                 Immigration and Customs Enforcement Management Controls 

                              Over Detainee Telephone Services 


                                         Page 12
Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      ICE Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                 Immigration and Customs Enforcement Management Controls 

                              Over Detainee Telephone Services 


                                         Page 13

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
